W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1598

Project Veritas Action Fund

Rachael S. Rollins, District Attorney

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Eric Haskell

Date:

6/11/21

Digitally signed by Eric Haskell
Date: 2021.06.11 18:36:06 -04'00'

(Type or print) Name Eric Haskell
Mr.

Ms.

Mrs.

Firm

Office of the Attorney General of Massachusetts

Address

One Ashburton Place

City & State

Boston, Mass.

Phone

617-963-2855

Miss

Zip 02108
Email

eric.haskell@mass.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

1. Benjamin Barr, Esq. (via U.S. mail to 444 North Michigan Avenue, Suite 1200, Chicago, Ill. 60611
and e-mail to ben@barrklein.com )
2. Steve Klein, Esq. (via U.S. mail to 1629 K Street NW, Suite 300, Washington, D.C. 20006 and via
e-mail to steve@barrklein.com)

